                                             OFFICE OF INSPECTOR GENERAL




           To:              Aaron S. Williams, Director
                            Dick Day, Regional Director, Africa
                            Daljit Bains, Chief Compliance Officer

           From:            Kathy A. Buller, Inspector General

           Date:            March 22, 2012

           Subject:         Final Report on the Audit of Peace Corps/Mali (IG-12-04-A)

           Transmitted for your information is our final report on the Audit of the Peace Corps/Mali.

           Management concurred with 19 and nonconcurred with one of the recommendations. We
           closed eight recommendations based on review of management's response and
           supporting documentation. In its response, management described actions it is taking or
           intends to take to address the issues that prompted each of our recommendations. We
           wish to note that in closing recommendations, we are not certifying that the agency has
           taken these actions or that we have reviewed their effect. Certifying compliance and
           verifying effectiveness are management's responsibilities.

           Our comments, which are in the report as Appendix D, address these matters. Please
           respond with documentation to close the 12 open recommendations in accordance with
           the estimated completion dates listed in the agency's response.

           You may address questions regarding follow-up or documentation to Assistant Inspector
           General for Audit Bradley Grubb at 202.692.2904.
           Please accept our thanks for your cooperation and assistance in our review.

           Attachment

           cc:     Carrie Hessler-Radelet, Deputy Director
                   Stacy Rhodes, Chief of Staff/Chief of Operations
                   Elisa Montoya, White House Liaison/Senior Advisor to the Director
                   Bill Rubin, General Counsel
                   Esther Benjamin, Associate Director for Global Operations
                   Joseph Hepp, Chief Financial Officer
                   Ed Hobson, Director of Safety and Security
                   Brenda Goodman, Deputy Associate Director, Volunteer Support
                   Alyssa Karp, Chief Administrative Officer, Africa
                   Lynn Foden, Chief of Operations, Africa



Paul D. Coverdell Peace Corps Headquarters   1111 2oth Street, NW • Washington, DC 20526 www.peacecorps.gov 1800.424.8580
Michael Simsik, Country Director
Allison Lange, Regional Security Advisor
MaliDesk@),peacecorps.gov
              Peace Corps
              Office of Inspector General




PC/Mali Volunteer Anderson Nunnelley’s house                   CIA World Factbook Map of Mali




                                                Flag of Mali




                              Final Audit Report:
                               Peace Corps/Mali
                                               IG-12-04-A

                                                                            March 2012
                                        EXECUTIVE SUMMARY
The Office of Inspector General (OIG) conducted an audit of Peace Corps/Mali from September
26, 2011 to October 7, 2011. At the time of the audit, the post had four U.S. Direct Hires, 57
personal services contractors and three foreign service nationals. The post had a fiscal year 2011
budget of approximately $4.6 million supporting 165 Volunteers. 1

The post’s financial and administrative operations were effective and in overall compliance with
agency policies and federal regulations. However, we noted the following:

       •   The post did not have an adequate process in place to control medical supplies, resulting
           in incomplete and inaccurate medical supply inventories.

       •   The post did not have adequate controls over monitoring consumption and replenishment
           over pre-paid fuel cards. The post could reduce pre-payments to the vendor by
           approximately $31,000. These funds could be put to better use if the post based its pre-
           paid fuel payments on the actual usage of its vehicles.

       •   The post lacked an effective process to monitor and track grant projects to ensure that the
           projects managed by Volunteers were completed and settled prior to a Volunteer’s
           completion of service.

       •   The post did not use adequate descriptions of the payees names in cash disbursements of
           approximately $90,000 to Volunteers and $150,000 to third parties. Amounts disbursed
           without recording the names of the payees respective invoice numbers or dates in the
           financial systems can lead to improper payments and fraud.

We identified further areas of improvement in property management, imprest fund management,
and the bills of collection process.

Management concurred with 19 and nonconcurred with one of the recommendations.
Management took timely action to remediate our findings. As a result, we closed eight
recommendations. The remaining 12 recommendations remain open pending copies of the
documents described in Appendices C and D.




1
    The post’s budget does not include the salaries and benefits of U.S. Direct Hires.


Final Audit Report: Peace Corps/Mali                                                                   i
                                                     TABLE OF CONTENTS

E XECUTIVE SUMMARY .................................................................................................................... i

T ABLE OF C ONTENTS ......................................................................................................................1

BACKGROUND ..................................................................................................................................1

AUDIT R ESULTS ...............................................................................................................................1
           MEDICAL SUPPLIES ..........................................................................................................................................1

           VEHICLE FUEL MANAGEMENT .........................................................................................................................4

           PRE-PAID EXPENSES .........................................................................................................................................5

           IMPREST FUND MANAGEMENT .........................................................................................................................6

           DISBURSEMENTS ..............................................................................................................................................6

           GRANT PROJECTS .............................................................................................................................................7

           BILLS OF COLLECTION ...................................................................................................................................... 9

           PROPERTY MANAGEMENT.............................................................................................................................. 10

           INFORMATION TECHNOLOGY ......................................................................................................................... 11


Q UESTIONED C OSTS AND F UNDS TO BE P UT TO BETTER USE .....................................................12

L IST OF R ECOMMENDATIONS .......................................................................................................13

APPENDIX A: O BJ ECTIVE , SCOPE , AND M ETHODOLOGY.............................................................15

APPENDIX B: L IST OF ACRONYMS ................................................................................................16

APPENDIX C: M ANAGEMENT ’S R ESPONSE TO THE P RELIMINARY R EPORT ...............................17

APPENDIX D: OIG C OMMENTS.....................................................................................................26

APPENDIX E: AUDIT C OMPLETION AND OIG C ONTACT .............................................................27
                                                BACKGROUND
OIG conducted an audit of Peace Corps/Mali (hereafter “the post”) from September 26, 2011 to
October 7, 2011. We previously performed an audit of the post in 2002 and issued our report
March 28, 2003 (IG-02-19-A).

The first group of Volunteers arrived in Mali in 1961. At the time of our visit, 165 Volunteers,
including three Peace Corps Response Volunteers, were working in the following program areas:
teaching English, community environmental conservation, sustainable agriculture systems,
environmental health, and community economic development. In 2011, the post’s budget was
approximately $4.6 million.

Our overall objective in auditing overseas posts is to determine whether the financial and
administrative operations are functioning effectively and in compliance with Peace Corps
policies and federal regulations during the period under audit. Appendix A provides a full
description of our audit objective, scope, and methodology.




                                               AUDIT RESULTS
MEDICAL SUPPLIES

The post did not fully implement the policies and procedures necessary to ensure the medical
supplies inventory was complete and accurate.

The Peace Corps Manual section (MS) 734 2 specifies the post’s requirements relating to medical
supplies inventory to strengthen internal controls and procedures over medical supplies. It states,
“It is the policy of the Peace Corps to maintain effective controls and procedures that govern the
procurement, receipt, storage, inventory, dispensation, and disposal of medical supplies and to
adopt and implement special standards applicable to controlled substances.”

During our audit we noted that the following:

       •   The post lacked separation of duties as required by MS 734, because the medical supply
           inventory control (MSIC) clerk reported to the Peace Corps Medical Officer (PCMO).

       •   The MSIC clerk did not maintain the medical inventory spreadsheet in compliance with
           MS section 734. Specifically, the MSIC clerk did not accurately record the receipts,
           issues, and balances for non-controlled substances. The PCMO had to conduct a monthly
           physical count to initiate replenishment of medical supplies because the inventory records
           were not reliable. We did not conduct a sample physical count to verify the balance noted

2
    MS 734 was updated in December 2011 with implementing procedures in Medical Technical Guideline 240, October 2011.


Final Audit Report: Peace Corps/Mali                                                                                     1
        in the inventory record was accurate due to the significant amount of time required to
        reconcile the balances with the prior month physical count prepared by the PCMO.

    •   The country director (CD) did not perform a quarterly or an annual inventory count as
        required by MS 734.

Adequate tracking of medical supplies, specifically the listed items, is required to ensure critical
medicine is available to Volunteers when needed. In addition, proper monitoring and
inventorying is required to prevent theft, loss, or abuse of the post’s medical inventory supplies
and provide effective medical services to Volunteers.

        We recommend:

        1. That the country director implement proper segregation of duties by assigning an
           individual outside the medical unit as the medical supply inventory control clerk.

        2. That the post implement the agency’s medical supplies inventory policy by ensuring
           that the medical supply inventory control clerk maintains adequate medical inventory
           records. The inventory records should record all receipts, issues, and provide the
           current balance.

        3. That the country director perform a quarterly inventory count of medical supplies and
           controlled substances in accordance with the Peace Corps Manual.

The post did not comply with the agency’s policy for disposal of expired medical supplies.

During our audit the PCMO informed us that expired medical supplies, including controlled
substances, were either flushed down the toilet or burned in the presence of the PCMO and the
CD.

MS 734 states:

        Medical supplies (medicines, dressing material, laboratory reagents, test kits, birth control products, and
        vaccines, etc.) with expired shelf life must be destroyed in the presence of the PCMO and the CD, in
        accordance with local waste disposal and air and water pollution control standards.

Flushing the expired medical supplies is not an adequate method of disposing medical supplies
and does not comply with MS 734.3.7.1.

According to the PCMO, the post is building an incinerator, and it will be utilized to dispose of
medical supplies. Alternatively, the PCMO should determine if the post can hand over expired
medical supplies to the U.S. Embassy medical officer for disposal.




Final Audit Report: Peace Corps/Mali                                                                                  2
        We Recommend:

        4. That the country director, in coordination with the Office of Medical Services,
           determine and use a proper method for disposal of expired medical supplies,
           including controlled substances.

The post did not implement the necessary controls over dispensing medical supplies to
Volunteers.

We included a similar finding in our PC/Ukraine report (IG-11-06-A) with recommendations to
the Office of Medical Services (OMS). Accordingly, we are not issuing a separate
recommendation in this report.

The post had an appointed MSIC clerk and used the proper medical supply forms. However, the
forms were not completely effective at controlling medical supplies because the medical
inventory form issued by headquarters did not provide a column for the beginning balance.
Further, the medical control forms used to record the dispensing of controlled and specially
designated medical supplies were not sequentially pre-numbered.

MS 734 states:

        The MSIC Clerk must maintain a Medical Inventory Control Log to record the inventory status of all
        medical supplies that are specially designated or controlled substances purchased, received, and stocked at
        post see Attachment C-PC-734C Medical Inventory Control Log. Each Medical Unit must maintain, on a
        current basis, a complete and accurate record of each controlled substance dispensed or disposed of.

During the audit, OMS revised the medical supply inventory tracking and physical count
worksheets to enhance medical inventory tracking. OMS was also considering sequentially pre-
numbering the dispensing forms to ensure all forms are entered in tracking worksheets.

The post had not developed a process for distributing medical supplies to Volunteers.

We included a similar finding in our PC/Ukraine report (IG-11-06-A) with recommendations to
OMS. Accordingly, we are not issuing a separate recommendation in this report.

The post had not developed a formal process for distributing medical supplies and could not
ensure proper internal control to track potentially sensitive medication. When the Volunteers are
unable to personally pick-up medical supplies at the post, the post packs them in paper bags and
delivers them to the regional office or sends them with the staff traveling near Volunteer sites for
delivery.

Peace Corps policies include controls over medical supplies and provide technical guidelines
including the PCMOs’ responsibilities. However, these policies and guidelines did not define
standard operating procedures and best practices for distributing medical supplies to Volunteers
when Volunteers are not able to pick-up medicine in person. Without a specific headquarters
policy, posts develop their own processes, which may lack accountability. These processes may
not consider the risks associated with the distribution of prescription medicine and controlled


Final Audit Report: Peace Corps/Mali                                                                                  3
substances such as pilferage or other losses. This practice may expose the Peace Corps to risks if
posts do not comply with the prevailing privacy laws.

Based on our findings, OMS has agreed to evaluate the various options available for distributing
medical supplies and issue a policy that complies with privacy laws and minimize risk.


VEHICLE FUEL MANAGEMENT

The post did not develop a process to manage and monitor fuel consumption and pre-paid fuel
cards.

The post did not implement a process to reconcile the actual usage and balances on prepaid fuel
cards. During our review we noted that the post issued prepaid fuel cards to drivers from the fuel
vendor to purchase fuel for vehicles and generators. Each vehicle was issued a fuel card and the
driver filling the fuel was required to submit a receipt to the motor pool coordinator, who
reported to the general services officer (GSO). The GSO assistant also maintained a log of all
receipts, duplicating the work. The motor pool coordinator recorded the total fuel consumed by
each vehicle on the Vehicle Status Report (VSR). However, the post did not reconcile fuel
consumption with actual fuel expenditures in FORPost or on the monthly statements from the
vendor. In addition, the director of management and operations (DMO) did not routinely review
the GSO’s fuel records to determine if usage was consistent with fuel expenses.

In FY 2011, the GSO recorded a fuel consumption amount of approximately $65,000 but the
post made payments of approximately $144,000 to fuel vendors, a difference of approximately
$79,000. The GSO could not explain the reason for such a large difference between purchases
and consumption and did not know the prepaid balance paid to the fuel company. After the post
conducted additional analysis, it determined that the fuel cards had an aggregate balance of
approximately $46,000 as of October 20, 2011. However, the remaining difference between the
VSR records and actual disbursements could not be determined because the records were not
accurate and reliable. The average monthly payment to the fuel vendor was $10,250 in FY 2010
and $11,975 in FY 2011. Further, an analysis of fuel charges from October 2011 shows the post
charged approximately $10,600 against the prepaid balance. The post could reduce the balance
of the prepayment by making payments more routinely and closely monitoring the balance.
Based on our analysis we believe that post could reduce the prepaid balance to $15,000, or
approximately one month and a half of fuel.

In addition, the post did not properly safeguard and control the fuel cards. The GSO did not have
a list of fuel cards readily available and replenished the fuel cards without verifying the balance
on hand.

Proper tracking of actual fuel use and the balances on the pre-paid fuel cards is required to
prevent fraud and misuse of fuel cards. Further, paying excessive amount to the fuel vendor
prevents those funds from being used for more immediate purposes. Since the site visit, the post
has implemented a new tracking and reconciliation process to enhance controls over the
management of fuel cards.


Final Audit Report: Peace Corps/Mali                                                               4
        We recommend:

        5. That the general services officer obtain a monthly usage report from fuel vendors,
           reconcile the receipts submitted by the drivers, and provide it to the director of
           management and operations for review.

        6. That the director of management and operations verify the current balance and usage
           of each vehicle prior to replenishing the balance on prepaid fuel cards.


PRE-PAID EXPENSES

The Peace Corps did not ensure all prepaid expenses were properly reported to OCFO and
properly recorded.

During our audit, we noted that the post prepays certain expenses including property rent, value
added tax (VAT), and fuel. For example, the post utilized prepaid fuel cards to manage fuel
expenses. During FY 2011, the total payments to the fuel vendor amounted to approximately
$144,000. At our request, the director of management and operations (DMO) obtained balance
information from the fuel vendor and noted that the balance on October 11, 2011 was
approximately $46,000. This balance was not reported to OCFO to be included in the financial
statements as prepaid expenses.

The Statement of Federal Financial Accounting Standard 1 (SFFAS) paragraphs 58 and 59 state:

        58. Prepayments are payments made by a federal entity to cover certain periodic expenses before those
            expenses are incurred.

        59. Advances and prepayments should be recorded as assets.

According to the deputy chief financial officer, OCFO implemented a procedure to capture the
pre-paid rent and issued new policy guidance that requires posts to issue Bills of Collection
(BOC) for VAT every quarter. Each year OCFO issues guidance on close-out procedures. CFO
Bulletin Number 11-05 instructed posts to ensure all leases and contracts were entered in
FORPost to ensure proper cut-off and recording of prepaid expenses. However, prepaid
purchases such as fuel may not be included if they were not contract costs. As a result, OCFO
did not have assurance that all prepaid expenses were properly recorded in the accounting system
and reported on the agency’s financial statements.

    We recommend:

    7. That the director of management and operations provide the prepaid balances to fuel
       vendors to the Office of the Chief Financial Officer at the end of the fiscal year for
       financial statement purposes.




Final Audit Report: Peace Corps/Mali                                                                            5
    8. That the Office of the Chief Financial Officer implement a procedure that requires posts
       to report details of outstanding prepaid expenses at the end of the fiscal year, and include
       this requirement in the guidance on close-out procedures issued each year.


IMPREST FUND MANAGEMENT

Staff did not clear their interim cash advances in a timely manner.

Overseas Financial Management Handbook (OFMH) section 13.18.2 requires that interim cash
advances be “liquidated (accounted for) within three (3) working days.” The OFMH further
states, “It is the responsibility of the cashier to monitor the clearance of interim advances and to
notify the Administrative Officer if advances are not cleared within 3 days for direct follow-up
action.”

During our review of the post’s monthly imprest fund reconciliation, we noted that five
employees had outstanding advances of the same amount throughout the year. Per our discussion
with the previous DMO (currently working as deputy administrative officer of the Africa
Region) these were “permanent” advances to regional officers because they needed imprest
funds to pay for expenses. OFMH 13.1 states, “Only a duly designated and authorized Principal
Class B Cashier may operate an imprest fund and is personally accountable for the imprest
fund.” The post and regional management discussed this matter with the Office of General
Counsel but have not devised a suitable solution.

        We recommend:

        9. That the post and regional management resolve the issue of regional officers holding
           outstanding advances by obtaining guidance from the Office of Global Accounts
           Payable and the Office of General Counsel for managing advances to regional offices.


DISBURSEMENTS

The cashier did not always identify payees’ names on FORPost for cash transactions.

OFMH section 13.14 “Documentation of Payments” states:

        All payments from the imprest fund require a valid receipt, signed by the person actually receiving the
        funds (not by the staff person who received the interim advance) or a formal receipt issued by a vendor
        (e.g., grocery receipt from a grocery store). The “Payee” to be entered into FOR Post therefore must also be
        the vendor, not the staff member taking the interim advance. (The exception is for “claims”, such as
        medical or taxi. For claims, the Payee is the staff member or Volunteer.)

OFMH section 13.14.3 “Multiple Payments” states:

        Posts are permitted to use multiple payment receipts where a number of Volunteers, or Trainees, or trainers
        are being paid at one time for the same purpose. A multiple payment receipt must fully describe the
        purpose of the payments, must list the individuals who are being paid, and must provide a space opposite


Final Audit Report: Peace Corps/Mali                                                                              6
        each payee's name for the signature of the payee, the dollar amount, and the date the cash was received. A
        multiple payment listing should be used only when the cashier knows that all signatures of payees will be
        obtained at one time because replenishment cannot be requested until the voucher is completed or deletion
        of the names of unpaid individuals has been made.

During our review of cash disbursement we noted that for several payments, amounting to
approximately $240,000, the post recorded variations of “Multiple PCV/Vendors” in the column
designated for name of the payee. These payments included the amount debited to several object
class codes, including Volunteer training, personal services contractors, living allowance,
supplies, other services, staff in-country travel, and conference costs. Approximately $90,000 or
38 percent of such payments were made to trainees during their pre-service training period,
which qualifies for the exception as noted in OFMH section 13.14.3. However, the payments for
the remaining $150,000 should include the name of the vendor or description of the nature of
payments.

Amounts disbursed without recording the names of payees and respective invoice numbers and
dates in the financial systems can lead to improper payments and fraud. This practice does not
allow the post, agency management or auditors to quantify amounts disbursed to specific vendors
or analyze data for duplicate or incorrect payment. Any analysis of payment would require
retrieval of physical vouchers and manually review lists of payees attached to a lump sum
payment, which is time consuming, inefficient and error prone.

        We recommend:

        10. That the director of management and operations require the cashier to identify the
            appropriate vendor or adequate description of the nature of payments when making
            cash payments.

        11. That the director of management and operations evaluate the feasibility of paying
            trainees via electronic funds transfer to reduce payments recorded without payee
            names in the financial systems.


GRANT PROJECTS

The post did not adequately track and monitor the progress of grant projects.

The post utilized Microsoft Excel spreadsheets to track and monitor Peace Corps Partnership
Projects and Small Project Administration (SPA) grant projects. The grant coordinator was
responsible for maintaining and updating the spreadsheet. However, we determined that the
spreadsheets were not always complete and up-to-date. The grant project tracking worksheet
maintained by post did not reflect current status for 2008 and 2009 for partnership and SPA
projects. The tracking sheet also did not include estimated completion dates of the projects.

Further, the files were not well organized and did not contain all of the relevant information.
Specifically:



Final Audit Report: Peace Corps/Mali                                                                                 7
    •   The grant project folders did not contain the project document checklist or project
        tracking information.

    •   The post did not retain a copy of the email sent from the grant coordinator to
        headquarters when a project was complete.

    •   The post did not obtain a proof of performance (either in the form of a photo of
        completed projects, or certification by a Peace Corps staff member) to verify that the
        project was actually completed as described in the project application.

    •   The support for completed projects, including receipts was filed loosely in the folder.

    •   The post revised the Volunteer liability form for SPA projects, excluding the required
        host community signature.

In addition, the post had not established a defined process to review and approve the grant
projects. The project proposals were circulated and reviewed in isolation. Any feedback, request
for revision, or reason for rejection were not documented and tracked in the project folder. As a
result, the project folder did not include the full history of the project.

Without an adequate process to oversee grants, the post could not ensure projects were properly
approved and completed timely. Our review of the files identified delays of up to four months
from the time the project was completed to the filing of the final report and the settling of
outstanding balances with the cashier. In fact, the post recently requested and received
permission from headquarters to write-off approximately $13,000 in outstanding balances
because the post did not obtain completion reports and receive repayment of unused balance
from Volunteers before their close of the service.

During our review, the post was in the process of reviewing the grant management and making
changes to improve the process. Our observations and recommendations are based on the results
of our review of current processes and records maintained by the post.

        We recommend:

        12. That the director of programming and training ensure that the status of all projects be
            updated in the tracking worksheets and that the associate Peace Corps directors
            follow-up with the Volunteers when completion reports are not submitted within 30
            days of estimated completion dates to ensure that project completion reports are filed
            and projects are closed.

        13. That the grant coordinator include the project document checklist, completion email,
            and proof of performance in the project folder and review it along with the
            completion report, prior to closing the project.

        14. That the director of programming and training and the grant coordinator (i) develop a
            reconciliation process with respective headquarter offices and ensure discrepancies


Final Audit Report: Peace Corps/Mali                                                                  8
             are cleared in a timely manner and (ii) inform headquarter offices if a Volunteer
             leaves the post without filing a completion report to enable the agency to recover
             funds prior to releasing the Volunteer’s re-adjustment allowance.

        15. That the director of programming and training ensure that Volunteers and the grant
            coordinator obtain the required liability forms prior to approving a project for
            funding, and retain all correspondence and project histories in the project files.


BILLS OF COLLECTION


The post did not have an adequate control process for preparing BOCs for VAT refunds.

OFMH section 7.1.1 “VAT Collections” states:

      A. Posts receiving VAT refunds via cashiering

      It is recognized that VAT BOCs will age and are not usually collectable per the review schedule in 7.2.1.
      Posts should monitor VAT BOCs, nonetheless. Any VAT BOCs over 2 years old should be discussed with
      the local Government, and Cashier-voided, if appropriate. (If voided, include a reference to this guidance and
      Government’s response in the void description.)

      1. Complete the VAT refund request documents and submit per Post processes.

      2. On the same day, the Billing Officer creates a Prepare BOC (Bill of Collection) based on the requested
      amount, selecting the pre-loaded obligation for VAT. The Billing guidance in 7.2 applies.

The billing officer did not prepare the BOC for VAT refund until money is collected. The VAT
refund application was prepared and submitted by the GSO without evidence of review of the
accuracy of the claim filed. Further, the post did not reconcile the actual refund received with the
refund amount claimed from the government. Without adequate control over the VAT refund
claim process, errors and omissions made in claiming the VAT refund may not be identified, and
differences between the amount claimed and the amount actually paid may not be identified and
reported in a timely manner.

        We recommend:

        16. That the director of management and operations ensure that the Bill of Collection is
            prepared when the refund claim is filed and review the refund claim for accuracy and
            completeness and compare it with the fuel charges paid to the fuel vendor, prior to
            filing the claim with appropriate authorities.

        17. That the director of management and operations reconcile the actual refund received
            with the claim filed and follow up on any discrepancy identified.




Final Audit Report: Peace Corps/Mali                                                                               9
PROPERTY MANAGEMENT

The post did not maintain accurate and up-to-date property inventory records.

“Standards for Internal Control in the Federal Government” (GAO/AIMD-00-21.3.1) issued by
the Government Accountability Office (hereafter, GAO Standards) state, “An agency must
establish physical control to secure and safeguard vulnerable assets.... Such assets should be
periodically counted and compared to control records.” The GAO Standards assert that
“…control activities help to ensure that all transactions are completely and accurately recorded.”
The GAO Standards also require the separation of duties, stating, “Key duties and
responsibilities need to be divided and segregated among different people to reduce the risk of
error or fraud.”

During our review we noted several errors in the Personal Property Inventory Report (PPIR) file.
This report was designed to enable posts to maintain control over agency property and to contain
up-to-date information about the status of the property held at each post. However, we
determined that the PPIR file was not up-to-date and the status of assets was incorrectly stated.
Further, the disposal details were not included in the file and certain additions made during the
year were not included in the worksheet.

Peace Corps headquarters is in the process of implementing new BarTrax software for
management of personal property records and inventory process. When this software is fully
implemented it is expected to enhance controls by automating property records and the annual
inventory process.

        We recommend:

        18. That the director of management and operations reconcile the physical inventory
            taken with the property inventory database and investigate discrepancies.

The post did not ensure proper separation of duties over property management.

The GSO assistant who is in charge of maintaining the PPIR also performs the physical count.
According to the DMO, the financial assistant reviewed the count results; however, the review
was not evidenced by a signature.

Adequate and properly implemented internal controls and procedures are essential for effective
accountability and oversight over post property. Control procedures such as segregating
incompatible responsibilities and reconciling inventories with the property inventory database,
are important steps in protecting the property from waste, fraud, and abuse.

We have noted similar issues at several posts and agency management is currently implementing
a bar coding system to streamline the inventory management process. However, until the new
software is fully implemented, posts need to ensure that the current processes and worksheets are
properly followed.




Final Audit Report: Peace Corps/Mali                                                              10
        We recommend:

        19. That the post ensure the physical inventory is conducted by someone other than the
            person maintaining the property databases.


INFORMATION TECHNOLOGY

During our discussion with the information technology specialist, we determined that the post
maintained a server at the training center to enable the staff to access Peace Corps systems
during training. However, he informed us that the server room at the remote site is located in an
open office and not in a secured location, and the office area does not have smoke detectors
installed in the room.

        We recommend:

        20. That the information technology specialist move the remote server to a secure
            location at the training center and install adequate protections, including smoke
            detectors, in the server room.




Final Audit Report: Peace Corps/Mali                                                             11
                            QUESTIONED COSTS AND
                         FUNDS TO BE PUT TO BETTER USE
We identified questioned costs and funds to be put to better use, during the course of the audit.
They are discussed in the accompanying audit report and noted below.



                                        Questioned Cost(s)

   Recommendation
                                                 Description                          Amount
       number
                           Grants funds written off because of Volunteers close of
             13            service occurring before issuing final close out reports   $13,000
                           and returning unused funds.




                                   Funds to be Put to Better Use

    Recommendation
                                        Description                                   Amount
        number
          6        Prepaid balance on fuel cards.                                     $31,000




Final Audit Report: Peace Corps/Mali                                                                12
                              LIST OF RECOMMENDATIONS
We recommend:

    1. That the country director implement proper segregation of duties by assigning an
       individual outside the medical unit as the medical supply inventory control clerk.

    2. That the post implement the agency’s medical supplies inventory policy by ensuring that
       the medical supply inventory control clerk maintains adequate medical inventory records.
       The inventory records should record all receipts, issues, and provide the current balance.

    3. That the country director perform a quarterly inventory count of medical supplies and
       controlled substances in accordance with the Peace Corps Manual.

    4. That the country director, in coordination with the Office of Medical Services, determine
       and use a proper method for disposal of expired medical supplies, including controlled
       substances.

    5. That the general services officer obtain a monthly usage report from fuel vendors,
       reconcile the receipts submitted by the drivers, and provide it to the director of
       management and operations for review.

    6. That the director of management and operations verify the current balance and usage of
       each vehicle prior to replenishing the balance on prepaid fuel cards.

    7. That the director of management and operations provide the prepaid balances to fuel
       vendors to the Office of the Chief Financial Officer at the end of the fiscal year for
       financial statement purposes.

    8. That the Office of the Chief Financial Officer implement a procedure that requires posts
       to report details of outstanding prepaid expenses at the end of the fiscal year, and include
       this requirement in the guidance on close-out procedures issued each year.

    9. That the post and regional management resolve the issue of regional officers holding
       outstanding advances by obtaining guidance from the Office of Global Accounts Payable
       and the Office of General Counsel for managing advances to regional offices.

    10. That the director of management and operations require the cashier to identify the
        appropriate vendor when making cash payments.

    11. That the director of management and operations evaluate the feasibility of paying trainees
        via electronic funds transfer to reduce payments recorded without payee names in the
        financial systems.




Final Audit Report: Peace Corps/Mali                                                             13
    12. That the director of programming and training ensure that the status of all projects be
        updated in the tracking worksheets and that the associate Peace Corps directors follow-up
        with the Volunteers when completion reports are not submitted within 30 days of
        estimated completion dates to ensure that project completion reports are filed and projects
        are closed.

    13. That the grant coordinator include the project document checklist, completion email, and
        proof of performance in the project folder and review it along with the completion report,
        prior to closing the project.

    14. That the director of programming and training and the grant coordinator (i) develop a
        reconciliation process with respective headquarter offices and ensure discrepancies are
        cleared in a timely manner and (ii) inform headquarter offices if a Volunteer leaves the
        post without filing a completion report to enable the agency to recover funds prior to
        releasing the Volunteer’s re-adjustment allowance.

    15. That the director of programming and training ensure that Volunteers and the grant
        coordinator obtain the required liability forms prior to approving a project for funding,
        and retain all correspondence and project histories in the project files.

    16. That the director of management and operations ensure that the Bill of Collection is
        prepared when the refund claim is filed and review the refund claim for accuracy and
        completeness and compare it with the fuel charges paid to the fuel vendor, prior to filing
        the claim with appropriate authorities.

    17. That the director of management and operations reconcile the actual refund received with
        the claim filed and follow up on any discrepancy identified.

    18. That the director of management and operations reconcile the physical inventory taken
        with the property inventory database and investigate discrepancies.

    19. That the post ensure the physical inventory is conducted by someone other than the
        person maintaining the property databases.

    20. That the information technology specialist move the remote server to a secure location at
        the training center and install adequate protections, including smoke detectors, in the
        server room.




Final Audit Report: Peace Corps/Mali                                                                14
APPENDIX A

                   OBJECTIVE, SCOPE, AND METHODOLOGY
Our objective in auditing overseas posts is to determine whether the financial and administrative
operations are functioning effectively and comply with Peace Corps policies and federal
regulations. Our audit conclusions are based on information from three sources: (1) document
and data analysis, (2) interviews, and (3) direct observation. Our audits are conducted in
accordance with the government auditing standards prescribed by the Comptroller General of the
United States. Those standards require that we plan and perform the audit to obtain sufficient,
appropriate evidence to provide a reasonable basis for our findings and conclusions based on our
audit objective. We believe that the evidence obtained provides a reasonable basis for our
findings and conclusions based on our audit objectives.

This post audit covered fiscal years 2009, 2010, and 2011 through August 31, 2011. While at the
post, we interviewed key staff including the CD, the DMO, staff responsible for administrative
support, and the lead PCMO. All staff interviewed told us they enjoyed working at the Peace
Corps and interacting with and supporting the Volunteers. We also interviewed Volunteers to
obtain their views on the effectiveness of the post’s administrative and financial systems in
supporting them. Volunteers told us they appreciated the interest shown by the staff in their
success and well-being.

As part of the audit process, we briefed the CD and DMO. At headquarters, we conducted a
general briefing for regional staff.

We relied on computer-processed data from the post’s accounting system and verified such data
with hard-copy documents as required. While we did not test the system’s controls, we believe
the information generated by the system and used by us was sufficiently reliable for our audit
objective.

Our audit criteria were derived from the following sources: federal regulations, the Peace Corps
Manual, Overseas Financial Management Handbook, federal regulations, and Peace Corps
policies and initiatives.




Final Audit Report: Peace Corps/Mali                                                           15
APPENDIX B

                                       LIST OF ACRONYMS
 BOC                             Bill of Collection
 CD                              Country Director
 DMO                             Director of Management and Operations
 DPT                             Director of Programming and Training
 MS                              Peace Corps Manual Section
 MSIC                            Medical Supply Inventory Control
 OFMH                            Overseas Financial Management Handbook
 OIG                             Office of Inspector General
 OMS                             Office of Medical Services
 PCMO                            Peace Corps Medical Officer
 PPIR                            Personal Property Inventory Report
 SPA                             Small Project Assistance
 VAT                             Value Added Tax




Final Audit Report: Peace Corps/Mali                                      16
APPENDIX C

  MANAGEMENT’S RESPONSE TO THE PRELIMINARY REPORT




Final Audit Report: Peace Corps/Mali            17
APPENDIX D

                                       OIG COMMENTS
Management concurred with 19 and nonconcurred with one of the recommendations. We closed
eight recommendations (numbers 1, 2, 4, 12, 13, 15, 16, and 20) based on evidence of corrective
actions that address the recommendations.

    •   Recommendations 3, 5, 6, 7, 8, 9, 10, 11, 14, 17, remain open pending a copy of
        documentation listed in the agency’s response.

    •   Recommendation 18. We request a copy of the inventory report and an exception report
        showing the items that could not be located. If the post is uncertain how to run these
        reports in the property database, it may need to contact the inventory management
        specialist in the Office of Management for further support.

    •   Recommendation 19. Management nonconcurred with this recommendation stating that
        the property roles were separated between the general services officer and general
        services assistant. The current process as described by the region does not meet the
        standard for achieving segregation of duties. Both the general services officer and general
        services assistant belong to the same office and the general services assistant reports to
        the general services officer, creating the potential for collusion and undue influence.
        Therefore, we request the post reconsider assigning duties related to maintaining the
        property database and conducting the physical inventory.

In their response, management described actions they are taking or intend to take to address the
issues that prompted each of our recommendations. We wish to note that in closing
recommendations, we are not certifying that the region or post has taken these actions, nor that
we have reviewed their effect. Certifying compliance and verifying effectiveness are
management’s responsibilities. However, when we feel it is warranted, we may conduct a
follow-up review to confirm that action has been taken and to evaluate the impact.




Final Audit Report: Peace Corps/Mali                                                            26
APPENDIX E

                   AUDIT COMPLETION AND OIG CONTACT

AUDIT COMPLETION                       Lead Auditor Hal Nanavati performed the audit.




                                       Bradley Grubb
                                       Assistant Inspector General for Audit



OIG CONTACT                            If you wish to comment on the quality or usefulness of this
                                       report to help us strengthen our product, please email Assistant
                                       Inspector General for Audit Bradley Grubb at
                                       bgrubb@peacecorps.gov, or call him at (202) 692-2914.




Final Audit Report: Peace Corps/Mali                                                                 27
Help Promote the Integrity, Efficiency, and
     Effectiveness of the Peace Corps
Anyone knowing of wasteful practices, abuse, mismanagement,
fraud, or unlawful activity involving Peace Corps programs or
personnel should call or write the Office of Inspector General.
    Reports or complaints can also be made anonymously.




                      Contact OIG

                                Hotline:
       U.S./International:       202.692.2915
       Toll-Free (U.S. only):    800.233.5874

       Email:                    OIG@peacecorps.gov
       Web Form:                 www.peacecorps.gov/OIG/ContactUs

       Mail:                     Peace Corps Office of Inspector General
                                 P.O. Box 57129
                                 Washington, D.C. 20037-7129

                   Main Office: 202.692.2900
